(2 of 2)

U-- •

Case No. 19-6434
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ORDER
REGINALD CHARLES HARVEY
Plaintiff - Appellant
v.
STATE OF TENNESSEE; OFFICER MARK BENDER, Badge #930; OFFICER ALEXANDER
EGO; OFFICER JANE DOE; INVESTIGATOR JOHN DOE #1, Chattanooga Police
Department; ASSISTANT DISTRICT ATTORNEY AMANDA MORRIS; GENERAL
SESSION CRIMINAL COURT; INVESTIGATOR JOHN DOE #2, Chattanooga Police
Department; OFFICER [UNKNOWN] WISE, Badge # 1690
Defendants - Appellees

Appellant having previously been advised that failure to satisfy certain specified
obligations would result in dismissal of the case for want of prosecution and it appearing that the
appellant has failed to satisfy the following obligation:
The proper fee was not paid by November 10, 2020,
It is therefore ORDERED that this cause be, and it hereby is, dismissed for want of
prosecution.
ENTERED PURSUANT TO RULE 45(a),
RULES OF THE SIXTH CIRCUIT
Deborah S. Hunt, Clerk

Issued: January 08, 2021

\
V-.-'w V

No. 19-6434

FILED
Oct 27, 2020
DEBORAH S. HUNT, Clerk

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
REGINALD CHARLES HARVEY,
Plaintiff-Appellant,
v.
STATE OF TENNESSEE, et al„
Defenuants-Appellees.

)
)
)
)
)
)
)
)
)
/

ORDER

Before: McKEAGUE, DONALD, and READLER, Circuit Judges.

Reginald Charles Harvey, a Georgia prisoner proceeding pro se, petitions this court to
rehear its June 18, 2020, order denying his motion to proceed in forma pauperis on appeal from a
district court judgment dismissing his civil rights complaint filed pursuant to 42 U.S.C. § 1983.
He also moves for appointment of counsel.
Harvey’s petition does not show that the court overlooked or misapprehended any point of
law or fact. See Fed. R. App. P. 40(a)(2). Accordingly, the petition for rehearing and motion for
appointment of counsel are DENIED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

m\ iPf\

D, , j-i23?.r3 1
i\huhii b hiy

No. 19-6434

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

REGINALD CHARLES HARVEY,
Plaintiff-Appellant,
v.

STATE OF TENNESSEE, et al.,
Defendants-Appellees.

)
)
)
)
)
)
)
)
)

Jun 18, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: COOK, Circuit Judge.
Reginald Charles Harvey, a Georgia prisoner proceeding pro se, appeals a district court
judgment dismissing his civil rights complaint filed pursuant to 42 U-S.C. § 1983. The district
court denied Harvey permission to proceed in forma pauperis on appeal by certifying that an appeal
would not be taken in good faith. See 28 U-S.C. § 1915(a)(3). Harvey now requests permission
from this court to proceed in forma pauperis on appeal. See Fed. R. App. P. 24(a)(5).
On October 18, 2017, Harvey mailed a § 1983 civil rights complaint from prison,
identifying the following defendants: the State of Tennessee; Officers Mark Bender, Alexander
Ego, and Wise; three unknown Jane and John Doe officers; and Assistant District Attorney
Amanda Morris. Harvey alleged that, on October 19, 2015, Wise served him with an eviction
notice. Harvey informed Wise that he “was the legal owner of the property” and “refused to
vacate” the property. When Wise called other officers for assistance, Harvey tried to show the
officers documents to verify his ownership of the property, “but they refused to acknowledge
anything” he said or showed them. A scuffle ensued between Harvey and the officers. Ultimately,
Harvey was arrested, detained, and charged with assault, resisting arrest, false identification,

No. 19-6434
-2-

obstruction of service of process, criminal impersonation, and aggravated criminal trespass. All
charges were dismissed on August 23, 2016.
Harvey alleged that the defendants conspired to violate his civil and constitutional rights,
in violation of 18 U.S.C. § 241; deprived him of his civil and constitutional rights in violation of
18 U.S.C. § 242; violated Uniform Commercial Code 3-505 and 3-401; violated his rights under
42 U.S.C. §§ 1982, 1983, and 1986; and violated his Fourth, Fifth, and Fourteenth Amendment
rights. Harvey also alleged claims for false arrest, false imprisonment, kidnapping, illegal search
and seizure, excessive force, and assault and battery. He sought monetary and injunctive relief.
On initial screening, the district court concluded that the complaint was time-barred and
sua sponte dismissed it under 28 U-S.C. § 1915(e)(2)(B) and 1915A for failure to state a claim on
which relief may be granted. The district court reasoned that a one-year statute of limitations
applies to § 1983 actions brought in Tennessee; that the incident about which Harvey complained
occurred on October 29, 2015, when he was arrested and allegedly subjected to an illegal search
and seizure and other alleged civil rights and constitutional violations; that “[t]he latest date on
which the statute of limitations” for Harvey’s claims could have begun to run was August 23,
2016, when the criminal charges lodged against him as a result of the October 29, 2015, incident
were dismissed; and that his October 18, 2017, complaint was untimely because it was filed more
than one year after the criminal charges were dismissed. Harvey filed a motion for reconsideration,
which the district court construed as a Federal Rule of Civil Procedure 59(e) motion to alter or
amend the judgment and denied. Harvey filed a timely appeal.
This court may grant a motion to proceed in forma pauperis if it determines that an appeal
would be taken in good faith and the movant is indigent. See Owens v. Keeling, 461 F.3d 763, 776
(6th Cir. 2006). A frivolous appeal, one that “lacks an arguable basis either in law or in fact,”
would not be taken in good faith. Neitzke v. Williams, 490 U-S. 319, 325 (1989); see also
Coppedge v. United States, 369 U.S. 438, 445 (1962).
Although Harvey based his claims on various sources of law, all of his claims essentially
alleged violations of his civil and constitutional rights and must be construed as falling under

■

'■

V

r-V

'• * v ;■ ^

7->:;

r

V'

No. 19-6434
-3-

§ 1983. For § 1983 actions, federal courts apply the state personal-injury statute of limitations.
Wallace v. Kato, 549 U.S. 384, 387 (2007). The appropriate statute of limitations for personalinjury actions arising in Tennessee and “brought under the federal civil rights statutes” is one year.
Tenn. Code Ann. § 28-3-104(a)(1)(B); Johnson v. Memphis Light Gas & Water Div., Ill F.3d
838, 843 (6th Cir. 2015) (discussing former version of Tennessee statute). The statute of
limitations “starts to run when the plaintiff knows or has reason to know of the injury which is the
basis of his action.” Eidson v. Tenn. Dep’tof Children’s Servs., 510 F.3d 631, 635 (6th Cir. 2007)
(citation omitted).
For the reasons stated by the district court, Flarvey’s § 1983 complaint is time-barred by
the applicable one-year statute of limitations. Because Harvey’s complaint is untimely, an appeal
in this case would be frivolous. See Neitzke, 490 U.S. at 325.
Accordingly, the motion to proceed in forma pauperis is DENIED. Unless Harvey pays
the $505 filing fee to the district court within thirty days of the entry of this order, this appeal will
be dismissed for want of prosecution.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

0

r\

\

%

J

DEC 0 2 MW
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
AT CHATTANOOGA
REGINALD CHARLES HARVEY,
Plaintiff,
v.

STATE OF TENNESSEE, MARK
BENDER, P. EGO, JANE DOE, JOHN
DOE #1, AMANDA MORRIS,
GENERAL SESSIONS CRIMINAL
COURT, JOHN DOE #2, AND OFFICER
WISE,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)

No.

1:17-CV-297-CLC-CHS

MEMORANDUM & ORDER
On October 9, 2019, the Court dismissed this pro se prisoner’s civil rights action filed
pursuant to § 1983 as time-barred [Docs. 32 and 33]. In doing so, the Court noted that a one-year
statute of limitations applied to Plaintiffs claims, that the latest date on which any of Plaintiff s
claims accrued was August 23, 2016, and that as Plaintiff had not filed his claims until October
18, 2017, they were clearly time-barred, and the Court therefore denied Petitioner’s pending
motions as moot [Doc. 32 pp. 2-3; Doc. 33].
Plaintiff has now filed an “objection” to the Court’s order dismissing this case, in which
he states that the order is not signed [Doc. 34], and a motion for reconsideration of this dismissal
[Doc. 35], which the Court liberally construes as a motion to alter or amend judgment pursuant to
Rule 59(e) of the Federal Rules of Civil Procedure. See Williams v. Thaler, 602 F.3d 291, 303-04
(5th Cir. 2010) (providing that “[wjlien a litigant files a motion seeking a change in judgment,
courts typically determine the appropriate motion based on whether the litigant filed the motion
within Rule 59(e)’s time limit”).

Case l:17-cv-00297-CLC-CHS Document 36 Filed 11/26/19 Page 1 of 3 PagelD #: 255

* :

For the reasons set forth below, Plaintiff is not entitled to relief based on either of these
filings and they will be DENIED.
I.

OBJECTION

First, while Plaintiff objects to the Court’s order dismissing this case because he states that
■ it does not contain a signature in violation of Rule 11 of the Federal Rules of Civil Procedure [Id.],
the order contains the Court’s electronic signature that the Court routinely uses in its orders [Doc.
33 p. 1], Moreover, Rule 11 does not apply to the Court. Fed. R. Civ. P. 11. Accordingly, to the
extent that Plaintiff seeks relief from the Court based on this objection [Doc. 33], it is DENIED.
II.

RULE 59(E)

In his motion for reconsideration, Plaintiff reiterates his claims, asserts that the applicable
statute of limitations for his claims is two years, and states that his complaint is therefore timely
and not moot [Doc. 35 pp. 1-8]. “A district court may grant a Rule 59(e) motion to alter or amend
judgment only if there is: ‘(1) a clear error °f law; (2) newly discovered evidence; (3) an
intervening change in controlling law; or (4) a need to prevent manifest injustice.’” Henderson v.
Walled Lake Consol. Schs., 469 F.3d 479, 496 (6th Cir. 2006) (quoting Intera Corp. v. Henderson,
428 F.3d 605, 620 (6th Cir. 2005)). It is improper, however, for a party to use such a motion “to
relitigate old matters, or to raise arguments or present evidence that could have been raised
[earlier].” Exxon Shipping Co. v. Baker, 554 U.S. 471, 486 n.5 (2008) (citation omitted).
Moreover, a district court should gram such relief sparingly. Ira Green, Inc. v. Military Sales &
Serv. Co., 775 F.3d 12, 28 (1st Cir. 2014).
As the Court previously explained, the statute of limitations that applies to Plaintiff s
claims is one year, not two, and, as such, Plaintiffs claims are untimely [Doc. 32 pp. 2-3].
Moreover, Plaintiffs mistaken belief that he had two years to file his claims is not a ground for

2
Case l:17-cv-00297-CLC-CHS Document 36 Filed 11/26/19 Page 2 of 3 PagelD #: 256

1

u

relief under Rule 59(e), nor is it grounds for equitable tolling of the statute of limitations. See
Taylor v. Palmer, 623 Fed. App’x 783, 789 (6th Cir. 2015) (holding that “it is well-established
that a mistaken belief in calculating the statute of limitations does not constitute an extraordinary
circumstance sufficient to warrant equitable tolling”); Griffin v. Rogers, 399 F.3d 626, 637 (6th
Cir. 2005) (holding that “ignorance of the law alone is not sufficient to warrant equitable tolling”).
As such, Plaintiffs § 1983 complaint was subject to dismissal as untimely and the Court therefore
denied Plaintiffs pending motions as moot [Id.].
Plaintiff has not established that the Court’s dismissal of this case resulted from a clear
error of law or that he is otherwise entitled to relief under Ruie 59(e). Accordingly, Plaintiffs
motion for reconsideration [Doc. 35] is DENIED.
SO ORDERED.
ENTER:
1st
CURTIS L. COLLIER
UNITED STATES DISTRICT JUDGE

3
Case l:17-cv-00297-CLC-CHS Document 36 Filed 11/26/19 Page 3 of 3 PagelD #: 257

*

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
AT CHATTANOOGA

REGINALD CHARLES HARVEY,
Plaintiff,
v.
STATE OF TENNESSEE, MARK
BENDER, P. EGO, JANE DOE, JOHN
DOE #1, AMANDA MORRIS,
GENERAL SESSIONS CRIMINAL
COURT, JOHN DOE #2, AND OFFICER
WISE,
Defendants.

)
)
)
)
)
)
)
)
)

No.:

1:17-CV-297-CLC-CHS

)
)
')
)

JUDGMENT ORDER
In accordance with the accompanying memorandum opinion, even liberally construing the
complaint in favor of Plaintiff, it fails to state a claim upon which relief may be granted under
§ 1983. Accordingly, this action is DISMISSED pursuant to 28 U.S.C. §§ 1915(e)(2)(B) and
1915(A) and Plaintiffs pending motions [Docs. 24, 2, 29, 30, and 31] are DENIED as moot.
Because the Court CERTIFIED in the memorandum opinion that any appeal from this order
would not be taken in good faith, should Plaintiff file a notice of appeal, he is DENIED leave to
appeal in forma pauperis. See 28 U.S.C. § 1915(a)(3); Fed. R. App. P. 24. The Clerk is
DIRECTED to close the file.

SO ORDERED.
ENTER:
Isl
CURTIS L. COLLIER
UNITED STATES DISTRICT JUDGE

Case l:17-cv-00297-CLC-CHS Document 33 Filed 10/09/19 Page 1 of 2 PagelD #: 236

'.

I

\

ENTERED AS A JUDGMENT
s/ John L. Medearis
CLERK OF COURT

i.'

2

Case l:17-cv-00297-CLC-CHS Document 33 Filed 10/09/19 Page 2 of 2 PagelD#:237

t

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
AT CHATTANOOGA
REGINALD CHARLES HARVEY,
Plaintiff,
v.
STATE OF TENNESSEE, MARK
BENDER, P. EGO, JANE DOE, JOHN
DOE #1, AMANDA MORRIS,
GENER AL SESSIONS CRIMINAL
COURT, JOHN DOE #2, AND OFFICER
WISE,
Defendants.

)
)
)
)
)
)
)
)
)

*

No.:

L17-CV-297-CLC-CHS

■)

)
)
)
)

MEMORANDUM OPINION
Plaintiff is a pro se prisoner who filed his complaint for violation of his civil rights pursuant
to 42 U.S.C. § 1983 in this action on October 18, 2017, based upon allegations that Defendants
used excessive force against him and committed other improper acts arising out of an incident on
October 29, 2015, in which various officers attempted to force Plaintiff to vacate certain property
pursuant to an eviction notice and carried out what Plaintiff alleges was an unconstitutional search
and seizure of his property [Doc. 2 at 9-25], Based on this incident, Plaintiff relies on Uniform
Commercial Code 3-401 to assert that Defendants violated 42 U.S.C. §§ 1982, 1983, 1986, and
241,18 U.S.C. § 242, and his rights under the Fourth, Fifth, and Fourteenth Amendments by falsely
arresting and imprisoning him and illegally searching him and seizing his property without a
warrant [Doc. 2 at 19-23]. While Plaintiff was charged with a number of crimes arising out of
this incident, all such charges were dismissed on August 23, 2016 [Doc. 2 at 31]. For the reasons
set forth below, however, the complaint is untimely and therefore fails to state a claim upon which
relief may be granted under § 1983. As such, this action will be DISMISSED.

Case l:17-cv-00297-CLC-CHS Document 32 Filed 10/09/19 Page 1 of 4 PagelD #: 232

:V —

I.

SCREENING STANDARD

Under the PLRA, district courts must screen prisoner complaints and shall, at any time,
sua sponte dismiss any claims that are frivolous or malicious, fail to state a claim for relief, or are
against a defendant who is immune. See, e.g., 28 U.S.C. §§ 1915(e)(2)(B) and 1915(A); Benson
v. O’Brian, 179 F.3d 1014 (6th Cir. 1999). The dismissal standard articulated by the Supreme
Court in Ashcroft v. Iqbal, 556 U.S. 662 (2009) and in Bell Atlantic Corp. v. Twombly, 550 U.S.
544 (2007) “governs dismissals for failure state a claim under [28 U.S.C. §§ 1915(e)(2)(B) and
1915A] because the relevant statutory language tracks the language in Rule 12(b)(6)." Hill v.
Lappin, 630 F.3d 468, 470-71 (6th Cir. 2010). Thus, to survive an initial review under the PLRA,
a complaint “must contain sufficient factual matter, accepted as true, to ‘state a claim to relief that
is plausible on its face.’” Iqbal, 556 U.S. at 678 (quoting Twombly, 550 U.S. at 570). Courts
liberally construe pro se pleadings filed in civil rights cases and hold them to a less stringent
standard than formal pleadings drafted by lawyers. Haines v. Kerner, 404 U.S. 519, 520 (1972). .
In order to state a claim under 42 U.S.C. § 1983, a plaintiff must establish that he was
deprived of a federal right by a person acting under color of state law. 42 U.S.C. § 1983; Polk
County v. Dodson, 454 U.S. 312, 315 (1981).
II.

ANALYSIS

District courts apply state statutes of limitations to § 1983 claims. Harris v. United States,
422 F.3d 322, 331 (6th Cir. 2005). Tennessee applies a one-year statute of limitations to § 1983
actions. Zundel v. Holder, 687 F.3d 271, 281 (6th Cir. 2012); Tenn. Code Ann. § 28-3-104(a)(l).
Federal law, however, determines “[t]he date on which the statute of limitations begins to run in a
§ 1983 action.” Eidson v. State of Tenn. Dept, of Children’s Servs., 510 F.3d 631, 634-35 (6th
Cir. 2007) (citing Kuhnle Bros., Inc. v. Cty. of Geauga, 103 F.3d 516, 520 (6th Cir. 1997)).

2
Case l:17-cv-00297-CLC-CHS Document 32 Filed 10/09/18 Page 2 of 4 PagelD#:233

■'i

The statute of limitations for many of Plaintiff s civil rights claims began to run on October
29, 2015, the date of Plaintiffs arrest and the alleged illegal search and seizure of Plaintiff s
property without a warrant. Fox v. DeSoto, 489 F.3d 227, 233 (6th Cir 2007) (holding that a claim
for excessive force under § 1983 arising out of the effectuation of an arrest accrues at the time of
arrest); Michel v. City ofAkron, 278 F. App’x 477, 479-80 (6th Cir. 2008) (holding that a Fourth
Amendment claim under § 1983 begins to run at the time of the search and seizure); Otyvorth v.
Vanderploeg, 61 Fed. App’x 163, 165 (6th Cir. 2003) tholdinethat the statute of limitations for a
due process claim began to run when the plaintiff had reason to know that he was subject to certain
restrictions on a property he inherited).
The latest date on which the statute of limitations for Plaintiffs other civil rights claims
began to run would be August 23,2016, however, as that is the date on which the criminal charges
"

L

••

against Plaintiff based on the incident in the complaint were dismissed [Doc. 2 at 31]. See Tenm
Code. Ann..§ 28-3-104(a); see also King v. Harwood, 852 F.3d 568 (6th Cir. 2017) (holding that

/

the statute of limitations for a malicious prosecution claim under § 1983 did not begin to run until
the date on which a-charge is dismissed); Collyer v. Darling, 98 F.3d 211, 220 (6th Cir. 1996)
(holding that the statute of limitations for false imprisonment claim under § 1983 begins to run
when plaintiff is released from false imprisonment). ^
As such, all of Plaintiff s claims, which he filed on October 18, 2017 [Doc. 2 at 26], are
clearly time-barred.
III.

CONCLUSION

For the reasons set forth above, even liberally construing the complaint in favor of Plaintiff,
it fails to state a claim upon which relief may be granted under § 1983. Accordingly, this action

3

Case l:17-cv-00297-CLC-CHS Document 32 Filed 10/09/19 Page 3 of 4 PagelD #: 234

^

■

«

' i

5

will be DISMISSED pursuant to 28 U.S.C. §§ 1915(e)(2)(B) and 1915(A) and Plaintiffs pending
motions [Docs. 24, 2, 29, 30, and 31] will be DENIED as moot.
The Court CERTIFIES that any appeal from this action would not be taken in good faith
'and would be totally frivolous. See Fed. R. App. P. 24.

AN APPROPRIATE ORDER WILL ENTER.

Isl
CURTIS L. COLLIER
UNITED STATES DISTRICT JUDGE

4
Case l:17-cv-00297-CLC-CHS Document 32 Filed 10/09/19 Page 4 of 4 PagelD#:235

\

• f

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
AT CHATTANOOGA
REGINALD CHARLES HARVEY,
Plaintiff,
v.
STATE OF TENNESEE, el al.,
Defendants.

)
)
)
)
)
)
)
)
)

No.:

1:17-cv-297-CLC-CHS

MEMORANDUM & ORDER
This is a pro se prisoner’s civil rights action brought under 42 U.S.C. § 1983 by Reginald
Charles Harvey (“Plaintiff’). Upon receipt of Plaintiff s complaint [Doc. 2] and motion for leave
to proceed in forma pauperis [Doc. 1], the Court entered a deficiency order [Doc. 14] notifying
Plaintiff that he had failed to file a certified copy of his inmate trust account for the previous sixmonth period as required under 28 U.S.C. § 1915(a)(2). In response, Plaintiff timely submitted a
second in forma pauperis motion with the inmate trust account certification attached [Doc. 20]. It
appears from the newly submitted motion for leave to proceed in forma pauperis and certification
l

that Plaintiff lacks sufficient financial resources to pay the filing fee. Accordingly, pursuant to 28

,

U.S.C. § 1915, Plaintiffs second in forma pauperis motion [Doc. 20] is GRANTED. Plaintiffs
original motion for leave to proceed in forma pauperis [Doc. 1] is DENIED as moot.
Because Plaintiff is an inmate in the Jenkins Correctional Center, he is ASSESSED the
civil filing fee of $350.00. The custodian of Plaintiff s inmate trust account will be directed to
submit to the Clerk, U.S. District Court, Chattanooga, Tennessee 37402, twenty percent (20%) of '
Plaintiffs preceding monthly income (or income credited to Plaintiffs trust account for the
preceding month), but only when such monthly income exceeds ten dollars ($10.00), until the full

Case l:17-cv-00297-CLC-CHS Document21 Filed 02/11/19 Page lot2 PagelD#:183

filing fee ofthree hundred fifty dollars ($350.00) as authorized under 28 U.S.C. § 1914(a) has been
paid to the Clerk. 28 U.S.C. § 1915(b)(2).
To ensure compliance with this fee-collection procedure, the Clerk is DIRECTED to mail
a copy of this order to the custodian of inmate accounts at the institution where Plaintiff is now
confined. The Clerk is also DIRECTED to furnish a copy of this order to the Court’s financial
deputy. This order shall be placed in Plaintiffs prison file and follow him if he is transferred to
another correctional institution.
Plaintiff is NOTIFIED that the Court WILL NOT consider any amendments and/or
supplements to the complaint or any other kind of motion for relief until after the Court has
screened the complaint pursuant to the Prisoner Reform Litigation Act, see, e.g., 28 U.S.C.
§§ 1915(e)(2)(B) and 1915(A), which the Court will do as soon as practicable. Accordingly, the
Court will automatically deny any requests to amend or supplement the complaint and/or motions
filed before the Court has completed this screening.
Plaintiff is ORDERED to immediately inform the Court and Defendants of any address
changes in writing. Pursuant to Local Rule 83.13, it is the duty of a pro se party to promptly notify
the Clerk and the other parties to the proceedings of any change in his or her address, to monitor
the progress of the case, and to prosecute or defend the action diligently. E.D. Tenn. L.R. 83.13
Failure to provide a correct address to this Court within fourteen days of any change in address
may result in the dismissal of this action.
SO ORDERED.
ENTER:
Isl
CURTIS L. COLLIER
UNITED STATES DISTRICT JUDGE

2
Case l:17-cv-00297-CLC-CHS Document 21 Filed 02/11/19 Page 2 of 2 PagelD#:184

